<html>
<title> - THE BIG ONE: HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A CATASTROPHIC EARTHQUAKE IN THE LOS ANGELES REGION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
      THE BIG ONE: HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A 
           CATASTROPHIC EARTHQUAKE IN THE LOS ANGELES REGION?

=======================================================================

                                (109-48)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                FEBRUARY 23, 2006 (WHITTIER, CALIFORNIA)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                    U.S. GOVERNMENT PRINTING OFFICE
28-263                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)

  
                                CONTENTS

                               TESTIMONY

                                                                   Page
 Hayashi, Ann-Marie, City of Whittier Emergency Services.........    18
 Jones, Dr. Lucille M., Scientist-in-Charge, Southern California, 
  U.S. Geological Survey, U.S. Department of the Interior........     5
 Renteria, Henry, Director, California Office of Emergency 
  Services.......................................................    18
 Stanley, Ellis M., Sr., CEM, City of Los Angeles Emergency 
  Preparedness Department........................................    18

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Hayashi, Ann-Marie..............................................    35
 Jones, Dr. Lucille M............................................    40
 Renteria, Henry.................................................    73


     THE BIG ONE: HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A 
           CATASTROPHIC EARTHQUAKE IN THE LOS ANGELES REGION?

                              ----------                              


                      Thursday, February 23, 2006

        House of Representatives Subcommittee on Economic 
            Development, Public Buildings and Emergency 
            Management, Committee on Transportation and 
            Infrastructure, Washington, D.C.
    The Subcommittee met, pursuant to call, at 9:00 a.m., in 
the Whittier City Council Chambers, 13230 Penn Street, 
Whittier, California, Hon. Bill Shuster [Chairman of the 
Subcommittee] presiding.
    Mr. Shuster. The Subcommittee will come to order. I want to 
start off by first welcoming everyone here today and thanks for 
the California hospitality. Coming from Pennsylvania the 
weather was not quite as nice. Actually about 35 degrees colder 
than it is here so I appreciate that greatly.
    I want to thank Mr. Miller for inviting the Subcommittee 
here today to Whittier. Can you here me? It sounds like it cut 
off. Can you here me? There it is again. Okay. Thanks to Mr. 
Miller for inviting us here to Whittier to hold this hearing 
today. Mr. Miller has been a strong leader for the Committee 
and we appreciate that. Because of the great risk California 
faces from both natural disasters and terrorism, you have 
ensured that we focus on California as we look to improve state 
and local readiness and capabilities.
    I know you have a strong interest in preventing a 
disorganized federal response to a catastrophic earthquake in 
California and we welcome your participation in today's 
hearing. Again, thanks for having us here today. I would like 
unanimous consent that Mr. Miller be permitted to sit with the 
Subcommittee at today's hearing, offer testimony, and ask 
questions. Without objection so ordered.
    I would also like to thank our witnesses for being here 
today. We are meeting this morning to receive state and local 
input for improving the emergency management capabilities and 
readiness at the federal, state, and local levels. Hurricane 
Katrina revealed problems in the emergency management system at 
all levels of government that have to be addressed. You have a 
role in guiding the efforts to fix those problems.
    Unfortunately this hasn't always been a collaborative 
process. Too often the federal government has failed to take 
into account your views. There has never been a greater need 
for your professional advice and expertise. We have to get this 
right and we need your help to do it.
    Like hurricane Katrina a catastrophic earthquake in 
southern California could paralyze the region, destroy the 
infrastructure, and leave tens of thousands homeless. With over 
300 faults southern California is at risk for a catastrophic 
earthquake.
    Models of a 7.5 earthquake in Los Angeles basin predict 
over 18,000 dead, a quarter of a trillion dollars in losses, 
and 300,000 left homeless. These predictions dwarf losses from 
1994 North Ridge Earthquake and without reforms in the current 
emergency management system we will have another uncoordinated 
federal response like that in the Gulf Coast.
    I was on the House Select Committee that investigated the 
response to Hurricane Katrina, and our key findings of the 
federal failure were that the plan was flawed and the execution 
was ineffective. There was confusion over who had the authority 
to make decisions.
    Response capabilities were efficient. In some places, it 
took a week before the federal government even arrived. Is 
southern California prepared to be on its own for a week, even 
though conventional wisdom says you only need to be prepared 
for 72 hours?
    The House Select Committee report found that the federal 
response to Hurricane Katrina was slowed because key decisions 
were made late, ineffectively, or not at all. Today, these key 
decisions about how and when to engage federal response assets 
are no longer in FEMA. They are with the Department of Homeland 
Security (DHS).
    Also, DHS and FEMA responded to Katrina with a business as 
usual attitude. Business as usual means sitting back and 
waiting for the state to request assistance, instead of 
proactively getting supplies into the field prior to a formal 
request. Business as usual does not work in a catastrophic 
disaster.
    Following a catastrophic earthquake, the state and local 
governments may need federal assistance before there is a clear 
operating picture. If federal assistance is needed immediately 
to save lives and prevent suffering, should the federal 
government wait for the state to follow protocol? Can southern 
Californians wait for help while the federal government demands 
that the state follows bureaucratic procedures? We cannot 
afford to get it wrong again.
    Additionally, the report found that the government failed 
to effectively execute response plans and authorities. This 
failure can be attributed to an inadequate professional 
disaster work force. At the time Katrina struck, FEMA had 500 
vacancies. This is a small agency within a big department. They 
cannot afford to be without that many people. Without the right 
number of the right people, this will never work.
    If we are to successfully respond to a catastrophic 
earthquake, we must enhance state and local emergency 
management capacity. One of the important lessons of Katrina is 
that the federal government's ability to respond to a 
catastrophic disaster is often dependent upon the quality of 
the state and local disaster system.
    Disaster management is a shared responsibility and state 
and local governments need to be able to handle most disasters 
on their own and be prepared to integrate federal assistance 
into their operations during larger events. Despite spending 
about $3 billion dollars a year on first responder grants since 
September 11th, it is very difficult to see where those dollars 
resulted in improved capabilities or readiness in our response 
to Hurricane Katrina.
    The report found that inadequate capabilities and readiness 
resulted in the federal response being overwhelmed in critical 
areas such as logistics, communications, situational awareness, 
and command and control. It is truly staggering that we have 
spent so much on preparedness and have so little to show for 
it. We have to do better.
    These are systemic failures. Clearly the system needs to be 
reformed. We are here today to hear about the specific 
challenges you face and your recommendations for reform at the 
federal level. At the end of the day, if the federal government 
fails to reform itself, then the state and local governments 
will have to face the next catastrophic disaster and its 
consequences largely alone for the first week or longer. I look 
forward to hearing your testimony today.
    I would like to turn to Mr. Miller now if you have a 
statement.
    Mr. Miller. Thank you. Welcome to Whittier. Chairman 
Shuster, we are quite a way from where you live but it is a lot 
warmer here. It was not so last week so we are experiencing 
some good weather. Our geography we have in California is 
different than we have in a lot of other states. We are here 
today to determine where we are in the preparation and planning 
process to be sure that we are prepared for the unthinkable.
    While state and local government planning is crucial, 
disaster preparedness federal coordination is essential to 
ensure the system can work. We would like to understand how the 
federal government can best employ the resources that would be 
needed in the aftermath of an earthquake in southern 
California. Specifically, how can we ensure adequate resources 
can flow to the areas in the need of rescue assistance, debris 
renewal, and emergency medical care. These are the questions 
that today's hearing will help us to understand.
    You messed my pages up. I have one arm. You will have to 
forgive me. This is the first day that I have worn a shirt, 
slacks, and even put on a tie since I had shoulder surgery. I 
am right handed. Try doing everything with your left hand and 
you will get your pages out of order, too, I guarantee.
    Mr. Shuster. You are better than most with one hand.
    Mr. Miller. I am not sure about that. It is fitting today 
that we convene this hearing at Whittier, California, the site 
of the Whittier Narrows Earthquake of 1987. When we discuss 
this about the proper location to have this I looked at the 
entire region and I thought Whittier really experienced 
firsthand what can happen with a 5.9 earthquake. We had eight 
people die. We had $400 million in damages and that is 
incredible for a city this size. I was raised in Whittier and 
that was quite an impact on our community.
    While the Whittier Earthquake was devastating to the 
region, the big one that we might have one day would be 
catastrophic. Whittier gave us the opportunity to test our 
preparations for a larger regional disaster. It also taught us 
what improvements were necessary to our plans and improvement 
to infrastructure and the services that were needed after an 
earthquake.
    I am pleased that Mrs. Hayashi of Whittier is here with us 
today to share her perspective from the local level about what 
is needed from the federal government to assist in a 
catastrophic disaster. Mrs. Hayashi is an expert when it comes 
to earthquake and emergency preparedness and can help us to 
understand the ways that the federal government got it right, 
the ways that we need to improve in what has happened since to 
better coordinate the efforts in the future.
    Most importantly, Mrs. Hayashi can shed light on what the 
federal resources are needed within the local community after a 
sudden earthquake. While not an earthquake, the devastating 
event this past August on the Gulf Coast provided another 
unfortunate wake-up call to all of us whom I would hope the 
catastrophic event might never happen in southern California.
    In the days that followed the hurricane we also witnessed 
what could happen when local, state, and federal officials are 
not adequately prepared to do what is appropriate to coordinate 
the disaster needs. Not only must we mobilize to make sure our 
emergency plans are in place but we must also learn from the 
mistakes that we have made in the past to ensure that they are 
corrected in the future.
    Learning from these past disasters is essential in ensuring 
that adequate and complete coverage of what is needed by the 
local communities takes place. We hope we never have the major 
earthquake we talk about having but if it does happen, how can 
we coordinate it in a way that the federal government can work 
with local, state, and federal government. Together we can 
create a body that will deal with the needs of the local and I 
am here today to basically understand what our local needs are. 
Thank you very much.
    Mr. Shuster. Thank you very much, Mr. Miller. What is the 
population of Whittier? I would imagine it is probably vastly 
different. 85,000? When you grew up here it was probably 
significantly--
    Mr. Miller. There were about 12 of us here.
    Mr. Shuster. Again, thank you, Mr. Miller, for having us 
out here today. I first want to ask unanimous consent that all 
our witnesses' full statements be included in the record. 
Without objection so ordered. Since your written testimony has 
been made part of the record, the Subcommittee request that you 
limit your summary to five minutes. We have two panels today of 
witnesses. On the first panel we have one witness, Dr. Lucy 
Jones with The U.S. Geological Survey.
    Dr. Jones is going to provide a presentation that will 
demonstrate the likely consequences of a catastrophic 
earthquake in the Los Angeles region. Just as the consequences 
of a category 4 storm hitting New Orleans are well known, I 
believe it is important that we fully understand what we could 
face here in a moment's notice. Following Dr. Jones' testimony 
we will open for questions.
    Dr. Jones, welcome again. Thank you for being here and you 
may proceed.

TESTIMONY OF DR. LUCILE M. JONES, SCIENTIST-IN-CHARGE, SOUTHERN 
  CALIFORNIA, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE 
                           INTERIOR.

    Dr. Jones. Thank you, Mr. Chairman, and Mr. Miller, for 
having me.
    Mr. Shuster. Dr. Jones, let me just say you can take more 
than five minutes. I am sure we are going to take more than 
five minutes trying to understand.
    Dr. Jones. Okay. That is quite reassuring because I had 
prepared a longer presentation than that. We need to get this 
where you can hear me.
    Mr. Shuster. There are all kinds of mics up here.
    Dr. Jones. Yeah, there I am. This is a great opportunity. I 
am being told to scare you and given free reign to tell you the 
worse. I am doing this actually from an interesting 
perspective. You are talking about federal versus state. I am a 
federal employee but with a regional responsibility.
    The U.S. Geological Survey under the National Earthquake 
Hazard Reduction Program does the science of earthquakes across 
the nation and we do this through regional operations so I am 
responsible for southern California because although that is 
only just one part of one of 50 states, it is half of the 
nation's earthquake risk so it is a very significant problem 
that we are facing in the region.
    I want to start with very briefly just to remind you what 
an earthquake is. An earthquake happens because of sudden slip 
across the fault that releases shaking as one of the its 
effects so that we actually have both phenomena that we need to 
look at, how the ground is disrupted, like this picture we are 
showing on the right from the KoBay Earthquake in Japan in 1995 
and then also the shaking that is released from it. Both of 
those will be causing significant effects on our 
infrastructure. They need to be taken into account as we get 
ready for this.
    Another point to remember is although you have been hearing 
that earthquakes happen at epicenters for a long time it is not 
true. They begin at a hypocenter but they happen over a 
surface. A good analogy for an earthquake is actually snapping 
your fingers. When you snap your fingers you put two surfaces 
in frictional contact. Because they are pushed together they 
can't move so you push hard enough and overcome the friction 
and it slips suddenly and released energy in the form of a 
sound wave that makes the air vibrate.
    When we slip on that fault, we release energy in the form 
of sound and sheer waves that make the ground vibrate but you 
can't snap your fingers at a point. It requires a surface in 
contact and, in fact, the bigger the surface is, the bigger the 
earthquake. The one thing that really controls how big an 
earthquake will be is how long the fault is that moves in that 
event.
    You may not have recognized that the United States had 
almost a magnitude 8 just a little over three years ago. It was 
up in the Alaska wilderness and did very little damage because 
of its isolated location. I want to show you this which is how 
we look at damage from an earthquake. You can see these colors 
are showing you how intense the shaking is.
    In this case we have a fault that was over 200 miles long 
and you can see there was an area of many tens of thousands of 
square miles that recede at shaking. But in that location there 
were very few people anywhere nearby. If we were to move this 
to California, you can see that same shaking area projected 
onto a map of California we would be affecting millions of 
people at a very high level of shaking.
    The level that we here received in the Whittier Narrows 
Earthquake is shown in orange on this figure. We never got to 
intensity 9. That is not magnitude, that is intensity that is 
shown with the red colors in this region. We had the yellow to 
orange in a very, very small area in the Whittier Narrows 
Earthquake. By comparison when we get to these really big 
earthquakes we are going to go to a very different class of 
disaster.
    What controls what the shaking is going to be is three 
things. The bigger the earthquake, you release more energy and 
you have more energy at every site. Your distance from the 
fault, the shaking dies off with distance quite rapidly. In 
fact, the one piece of good news in California--the bad news is 
we have a lot of faults. The good news is they break up the 
crust and make it a poor transmitter of energy.
    You are going to hear tomorrow about how the New Madrid 
Earthquake could affect the area in Missouri where the crust is 
old and cold and hard and a magnitude 7.5 moved furniture in 
the White House. It is felt over a very, very large area.By 
comparison here in California it dies off more rapidly.
    You can have local soils that amplify the shaking. If you 
are in soft ground the waves slow down and to carry the same 
amount of energy they have to get bigger. We have been able to 
map out where in California. One of the efforts of the U.S. 
Geological Survey is to look at where we have this effect and 
we have been able to put the whole picture together and the 
upper map here is showing you where we have relative 
amplification of shaking whatever the earthquake is.
    You can see here in the basin areas wherever it is flat, 
wherever you avoid the wildfires, you have an amplification of 
shaking. Again, you will hear that tomorrow along the 
Mississippi River. It is a very major issue as well.
    As I said, this is a national problem but here in southern 
California we are responsible for half of the nation's risk. It 
is a combination of over 300 faults, as the Chairman said, 
combined with 20 million people. You put it together and we 
have just got the greatest exposure that we are going to have.
    The reason we have so many faults here in southern 
California is that we have a plate boundary. The San Andreas 
fault is the boundary between very large sections of the 
earth's crust. The North American plate runs from the San 
Andreas fault all the way out to Iceland. The Pacific plate 
runs from the San Andreas fault out to Japan. These two very 
large pieces of the earth's crust are moving with respect to 
each other and they come together right here in California 
along the San Andreas fault.
    We aren't stopping plate tectonics. There is no way we are 
going to stop this movement of just about two inches a year. 
That is about the rate that your fingernails grow. If you 
didn't cut your fingernails for 200 years you would have a 
pretty big offset and that is what has built up on the San 
Andreas fault.
    We compounded in southern California by putting a kink in 
the San Andreas. You can see the bend in the fault here. Try to 
imagine taking two pieces of glass and hitting them up against 
each other. They are going to shatter and then you will sweep 
the pieces around the corner. Well, southern California is 
shattering along this network of faults and we are sweeping 
around the corner. The end result is a mosaic of faults, 
several 100.
    This is a picture that we put together with the southern 
California Earthquake Center, a group of academics that we fund 
through the USGS that you see this whole network of faults. All 
the little dots are the earthquakes we have recorded over 
300,000 earthquakes in the last 20 years within the region. 
Every one of these is capable of a significant earthquake. 
Remember the length of the fault gives you the size of the 
earthquake. Some of these are very, very long.
    When I try to tell you how bad the worse one could be, it 
is very limiting to try and pick only one event out of this 
whole network of possibilities so I am going to show you two. 
One is going to be the San Andreas. That is our biggest 
earthquake. It is long enough to produce a magnitude 8. It is 
also our most common earthquake. That fault is moving very 
fast. They average 200 years apart and it has been 300 years 
since the last one in southern California.
    Then we are going to look at what happens if you put one in 
right under this area. Let us start with the San Andreas. I 
said intensity 8 was the level that we had at Whittier at 
Whittier Narrows and we are looking up to intensity 10 on this 
big earthquake. You can see it will cover a very large area.
    This is a relatively simple level of modeling that we can 
do that looks at just how big the earthquake is and what our 
soil conditions are. It gives us a pretty bad picture. What is 
really significant about the San Andreas Earthquake is actually 
going to be its affect to the infrastructure.
    Like Katrina we are going to have a situation where you 
can't drive away from the disaster. In Whittier Narrows or in 
North Ridge you could get in your car and drive for five 
minutes and buy a hamburger and a bottle of water. In this 
earthquake you are not going to be able to drive out of it 
because all of southern California is going to be involved.
    We are also going to have a disruption to the 
infrastructure. On the left I have a picture of what happened 
to a dirt road during an earthquake in Landers in 1992. Here is 
a picture of what happened to a railway in Turkey. This is 
going to happen to all of the freeways and railways coming into 
Los Angeles. If you go in and look at the structure that we 
have, every railroad coming into southern California crosses 
the San Andreas fault.
    Every major freeway except highway 101 to San Francisco 
crosses the San Andreas fault. We are going to have those 
levels of disruption, that 20 feet of offset in the road.
    Also all of our gas pipelines, 90 percent of our 
electricity transmission, all of our outside water. Every one 
of those infrastructure systems cross the San Andreas and will 
be disrupted when this earthquake happens.
    Here is actually a photo. We have done a very detailed 
imaging of the San Andreas fault and you can see here I-15 
crossing the San Andreas fault which is shown by the yellow 
line. Now imagine that you have moved one side with respect to 
the other. You can see that we are going to have a disruption 
to our freeways.
    This is all something that could be addressed before the 
earthquake. We could look at the way we are building our 
freeways to not have the big berms on the side that will be 
cutting off the roads when the offset happens. I will say the 
Metropolitan Water District has been extraordinary in their 
efforts to take this into account. The water systems have 
considered this in great detail. All of our water storage is on 
this side of the San Andreas fault. We have not done this so 
much with the gas pipelines or with the transportation systems.
    Now, let me look at what is going to happen when we 
actually have the earthquake. I have got this movie going here. 
One of the things that has happened in the last five years is 
the scientists have developed new capabilities for really 
modeling what is going on during the earthquake, a very 
exciting time within the field. We are able to make models of 
just how the ground is going to move.
    This got started quickly on me and you see I stopped. Time 
since the beginning of the earthquake 132 seconds. This 
earthquake is going to be lasting for several minutes just 
because the fault is so long. You can see the level of ground 
motion going on. You can see out on the San Andreas it has 
already stopped moving.
    In Los Angeles in the San Fernando Valley because of our 
basins we are going to set up residences. We are able to model 
these now with science. This has not yet been taken into 
account on things like our building codes. This is one of the 
directions that the U.S. Geological Survey is really interested 
in going is being able to take these new advances in the 
science and turn it into an end-to-end model.
    Let us not just do the geology of the seismology. Let us 
take it through into the engineering, into the economics, into 
the emergency response. We have been in talks with the State 
Office of Emergency Services of how to try and do a really big 
picture modeling that will take this whole thing into account. 
We have a lot more that we can tell you. One of the things we 
have done is we have taken the data from the earthquake in 
Alaska and put it into buildings.
    This is a model of what would happen to buildings in the 
San Fernando Valley if we had a 7.9 on the San Andreas fault. 
The upper building that just came down is the one that is 
designed to pre-1994 codes. The redesign that was put in is in 
the bottom building and they stand up. This is new to be able 
to get this capability of modeling and we really do want to 
take it through to the complete picture.
    The other type of earthquake we could look at that gets 
pretty bad is to put one into the LA basin. There are a lot 
more people and older buildings. Our biggest single issue is 
that our building codes are not retroactive. Most of the city 
was not built to the most modern building code. It was built to 
much older standards and it becomes the responsibility of 
individual builders to upgrade. There is our single largest 
element of risk.
    If we had this earthquake, again we do this sort of simple 
model of where the earthquake is. This is the study that you 
referred to. It ends up telling us that we are looking at a 
quarter of a trillion dollars in losses and potentially the 
majority of buildings. Many zip codes have the majority of 
buildings destroyed by the event. This estimate came up with 
450,000 homeless people being created by this earthquake.
    Again, though, we have the capability of doing more 
advanced modeling on this. The southern California Earthquake 
Center has just put together a new simulation of what will 
happen during this earthquake. We will watch it go by and watch 
how the ground really starts moving. It starts moving right 
near here and then propagates out across the Los Angeles basin.
    I will tell you that when I watched what happened in 
Katrina, we all learned different lessons. What I learned as a 
lesson is that all of the science by itself isn't doing any 
good. It is the science applied that is going to make a 
difference. I had heard all about what would happen in Katrina 
just like I have done this modeling of what is going to happen 
here in Los Angeles. What we need to do is make sure that this 
information goes into our planning and we get a better 
cooperation between the scientists and the emergency managers.
    I would say I think that we do remarkably well at that here 
in southern California. I know all of the emergency managers 
that are coming to speak here. But we could take this further 
and get this used in a lot more effective way.
    To summarize what the major impacts are likely to be, we 
are talking about disruption to our infrastructure. Extremely 
concerned about mid-rise construction built between the 1950s 
and 1970s. Major building code change happened because of the 
San Fernando earthquake but a lot of Los Angeles was built 
before that earthquake happened.
    We don't know what is going to happen to the high rises 
because we have never put a modern building through a major 
earthquake. And our dam systems. A lot of those are quite old 
and that is where we could start getting the compounded 
problems. The other lesson from Katrina is you go from disaster 
to catastrophe with the secondary failures. If the levees had 
stayed intact, it wouldn't have been so bad. We have that 
potential here as well. The big secondary failures are fires if 
we have the earthquake during a Santa Ana condition. We have 
fires like this without any earthquake at all. Now let us have 
an earthquake and 1,000 ignition sources. That to me is the 
true nightmare scenario.
    I am going to finish with one of the things that the U.S. 
Geological Survey wants to do about this. As I have repeatedly 
said, science alone can't stop the losses. If you look at the 
combined picture, the possibility of interactions here in 
southern California, you know, we joke about our four seasons 
of wildfires, earthquakes, flood, and landslides. The reality 
is those four disasters are major issues.
    We need to come together with the community to use this to 
make a decision so the USGS is proposing in Fiscal Year '07 to 
begin an approach where we have an integrated project bringing 
together the four disasters looking at a variety of different 
science topics in terms of analyzing the San Andreas fault, 
looking at a landslide warning system that we partner with the 
National Weather Service. But the most important part is that 
we are going to have a new process where we guide the research 
directions with the input from our emergency managers and other 
community partners.
    We are going to be bringing together the different hazards 
that we study within the U.S. Geological Survey and with the 
community partners so that we are going to do it in a way that 
they are actually wanting us to do. We are bringing it together 
because we have--it would be much more efficient. We often use 
the same data. We serve the same customers and we all have the 
same goals that we are trying to get a safer southern 
California.
    And just with one last piece, there is a lot that we 
already know. There is a lot that we can share. There is more 
that we can do in the future. One of the things that we are 
excited about is the possibility of actually getting the 
information that an earthquake is underway before the 
earthquake shaking arrives at the more distant locations.
    You notice the San Andreas fault is outside the city and we 
have the potential that once the earthquake begins the waves 
will start traveling out and reach our seismic station so we 
can know that the earthquake has begun before the shaking gets 
to the city. If we can transmit that information quickly enough 
through a satellite system, we can get this over, process the 
data and actually get out a warning before the waves arrive. 
Because of the geometry here in southern California, we have 
the potential for about a half-minute warning.
    You don't make decisions in a half a minute but you do have 
the potential for things like automatically stopping train 
systems, moving elevators to the nearest floor so that people 
aren't trapped in an elevator, ringing an alarm in an operating 
room so the surgeon is taking the scalpel outside of your 
shoulder. It isn't physically in your body when the shaking 
comes down.
    Mr. Miller. That's a good example.
    Dr. Jones. So there is a lot of places where science can 
help us and it is our goal to try to get that used because I 
know how bad it can be and they knew in Katrina as well. Thank 
you.
    Mr. Shuster. Thank you. Wow. I am glad I am going back to 
Pennsylvania.
    Dr. Jones. Some of us still live here.
    Mr. Shuster. The first question I have for you, you can get 
a 30-second warning but in your modeling of the predictability, 
how far out can you--is that at all possible that you can say 
it looks like it is going to happen or it may happen?
    Dr. Jones. At this point there are a lot of pieces that we 
can predict. I said this has been an exciting time. There have 
been a lot of developments in understand the physics of 
earthquakes. At this point we have no way at all in saying 
there will be an earthquake 3:00 on Friday afternoon.
    However, we are starting to develop recognized patterns 
within it. In fact, there is a new center that is called the 
Keck Collaboratory for the Study of Earthquake Predictability, 
a new grant from the Keck Foundation to our partners at the 
southern California Earthquake Center to try and actually do 
this. I think one of the most exciting things is we finally 
have the tools to test predictions. People have been able to 
claim predictions without actually being successful. We can't 
do it now but it is an exciting time and there is a lot of 
research going on that have the scientists pretty excited.
    Mr. Shuster. When you see the plates starting to move, you 
can't with any certainty or any--
    Dr. Jones. There is no certainty. What we can do is say 
that one earthquake makes another earthquake more likely. 
Actually we have a webpage that gives you the probability of an 
earthquake shaking in the next 24 hours. What that shows you is 
what we know from a long-term geology which we do know very 
well and that is not uniform and the probability that one 
earthquake will trigger another which is a very common 
phenomenon. Half the damage in Whittier Narrows actually 
happened from the largest after shock. We can do that and we 
are hoping to take that further but at this point we cannot.
    Mr. Shuster. And you said 24 hours you can predict?
    Dr. Jones. It is not that I can predict in 24 hours. When 
one earthquake happens others become more likely and I can 
quantify how likely that becomes and I can choose to express it 
on any time period I want and we are doing a 24-hour map 
because that is the most likely time for one earthquake to 
trigger another one.
    Mr. Shuster. Right.
    Dr. Jones. But it is a decay with time. We have a little 
bit. We are sort of on the edge of moving into things but right 
now there is no prediction.
    Mr. Shuster. You also mentioned you can't drive away from 
this accident, this earthquake we are talking about.
    Dr. Jones. I think that is the thing that most people don't 
understand is that a big earthquake affects so much larger an 
area. At North Ridge the fault was 10 miles across and in this 
earthquake it is going to be 200 miles. It is such a different 
scale of disaster. We have not seen it in the last 100 
hundreds. 100 years ago we have the 1906 earthquake that 
destroyed San Francisco and it did eliminate a major city of 
the United States.
    Mr. Shuster. What was the magnitude?
    Dr. Jones. That was 7.9.
    Mr. Shuster. And this one we are talking about would be 
7.5?
    Dr. Jones. 7.9. It's very similar and it is a different 
scale than the earthquakes we have had in between.
    Mr. Shuster. How frequently are you having the 5's and the 
6's?
    Dr. Jones. We average a magnitude of 5 about three times a 
year somewhere in California. Most of the time they aren't near 
people. We have had an earthquake that causes a billion dollars 
worth of damage in modern terms about once every 10 to 15 
years. We lose about a billion dollars every 10 to 15 years and 
then we have a half-a-trillion dollar earthquake once every 100 
years.
    Mr. Shuster. You talked about the railroads and highways 
and pipelines cross the San Andreas fault. Can you predict the 
ones that are most suspectable to damage or are they just all?
    Dr. Jones. That fault crossing issue, because the San 
Andreas moves so much more rapidly than the others, we can 
address that specific issue and we should. We could go in and 
build beforehand ways that would make it easy to recover after 
the event. They have done this on the water systems. We could 
do it on the roads. The Department of Transportation in 
California has invested over $6 billion since the Loma Prieta 
earthquake in strengthening freeway bridges.
    Mr. Shuster. When was that?
    Dr. Jones. 1989. In the last 16 years they have spent over 
$6 billion. The state keeps track of this. State investment and 
earthquake mitigation has just hit $20 billion since 1990 so 
California invests major resources in trying to reduce those 
loses. We are a lot better off than if we hadn't done them.
    Mr. Shuster. You said about the buildings, they are not 
being retrofitted or is it cost prohibitive to retrofit these 
buildings? I would think it would be.
    Dr. Jones. There is no cost incentive. The way the system 
works right now if a building owner said, ``I want to do the 
responsible thing. I want to invest my building'' there is no 
tax credits. There is no increase in rent because there is no 
way of communicating to your tenants. I am also on the 
California Seismic Safety Commission so I have gotten involved 
in policy decisions.
    One of the things that we have discussed there is imagine 
if you had a rating system so that when you go to rent office 
space you can be told that, ``This building is an A-rated 
building. This is what more likely to be up and functioning and 
you can recover your business after the earthquake happens. 
Versus this one which hasn't done any retrofitting and it is a 
C-rated building and we think the probability is that it is 
going to be shut for a month for a month after the big 
earthquake.''
    Then the person who had invested in the retrofitting would 
be able to get a return on his investment by charging more 
rent. I would be willing to pay more to be sure of it being up 
and running after the earthquake.
    Right now we don't have any way of communicating the extra 
safety you have achieved and, therefore, the market can't work 
because the information isn't there.
    Mr. Shuster. Thank you.
    Mr. Miller.
    Mr. Miller. There are a lot of questions. I have lived here 
all my life virtually and I have seen many different types of 
earthquakes. Maybe you can explain this. I have seen the ones 
where you would just get a banging jolt. I have seen some that 
you would get just vibrations. Others that you would get 
shaking from one side to the other. Other ones you would get a 
roll. You can actually see it roll. There was one in the '80s 
where you could see the ground rolling. It was really weird. 
Could you explain the differences and which are more dangerous?
    Dr. Jones. A lot of what you are talking about is a 
combination of how big the earthquake was and how far away you 
are from the earthquake. When an earthquake happens you release 
energy in a lot of different frequency bands. If you are very 
nearby you feel them all and the one you notice is the jolt. If 
you are a long ways away the high frequency has died off just 
like if you hear a boombox going down the street, you can only 
hear the bass notes.
    Those low notes, low frequencies transmit farther. If you 
are a long ways away from a big earthquake, all that is left is 
the rolling motion. How dangerous it is actually depends on 
what building you are in because the buildings respond to these 
different frequencies. One of the scary things about the really 
big earthquake is it is going to have a huge amount of that 
rolling motion.
    By the way, you get more low frequency on a bigger fault 
just like you get more low frequency out of a cello instead of 
a violin. You get all those low frequencies and they now travel 
a long ways away. Really big buildings are going to be 
vibrating in response to them. We don't know all about how that 
is going to respond. That is why that model that just came out 
of Cal Tech of the buildings showing those big buildings coming 
down, it is because there is way more low frequency in there 
than we had previously modeled.
    It is not going to affect a small building. Your single-
family home is just going to ride that out, but the really big 
building is going to respond to it. What you are feeling with 
those different sensations is different parts of the frequency 
band. Bigger earthquakes give you more long periods and those 
long periods travel for a farther distance and you get 
different combinations at different distances from different 
sizes.
    Mr. Miller. You commented on retrofit. I guess that raises 
some red flags. New standards need to be adopted so we can 
build accordingly but we required hospitals in California to 
retrofit a few years ago. All it did was force some hospitals 
out of business and other ones where they say they will have to 
go out of business because you have market rate on anything. 
There is a market rate on health care. There is a market rate 
on renting an office, a building. Whatever you're leasing you 
can only get X amount.
    When you start rating them, then all you are impacting is 
market rate where they drag down what somebody should receive 
as a yield for rents and such. How might that really negatively 
impact the market place because it is cost prohibitive in many 
cases to go out and be able to spend the kind of money you need 
to spend on a major building to retrofit.
    Dr. Jones. I think that--
    Mr. Miller. I believe in standards being changed but when 
you go back to cause ratings of existing, I think you are 
having a major impact on the market that is not going to be 
resolved.
    Dr. Jones. Well, the main thing that I would see is that 
information is always of value so people could choose and say, 
okay, and you definitely couldn't say this building is going to 
fall down. The only thing you could say is that this building 
has a higher standard. This is information that you can find if 
you go and dig it out. If you go to rent a building and you go 
to the building department, you can find out what were the 
standards to which it was built.
    Mr. Miller. People don't do that.
    Dr. Jones. People don't do that.
    Mr. Miller. But if you walk into an office building and say 
this has an A rating, market is $230 per square foot. This has 
a D rating and might be a $1.40 a square foot. That is what we 
are doing is driving down what they can lease and the cost of 
retrofitting some of these buildings that are only 20 or 25 
years old is to such a degree that sometimes you are better off 
just taking the building down and starting over. That is what 
hospitals are finding out that aren't that old.
    Dr. Jones. Right.
    Mr. Miller. They said it would cost more to retrofit than 
it would to bulldoze the building and build a brand new one. 
That is my concern about ratings. I can see being proactive and 
saying we need to go out in the future and change standards. 
Those standards you are going to change gradually because of 
the cost and the technology available to deal with the impact. 
I think ratings we should look at cautiously. The main question 
I have, though we talk about what impact we might face in 
California, we have inadequate water storage.
    I mean, if you look at the four reservoirs that are 
proposed in California, they are all in northern California. We 
need one to two more in the region. MWD's main line crosses 
over the San Andreas. The main line we have on the California 
aqueduct also crosses in numerous locations. A major earthquake 
is going to shut both of those down and those are not going to 
be put back up and running in a week or two when that happens.
    What impact are we going to face not only on our water but 
on our major dams in the area? Proto is an example. If that 
lets go and these other dams let go, we have some huge 
problems. What do you see as an impact in California just on 
our water quality?
    Dr. Jones. I think water is one of the largest issues we 
are faced with in an earthquake. You also forgot the LA 
aqueduct that comes down from Owens Valley. That also comes 
through Collin pass. All of our outside water systems do cross 
the San Andreas and will be offset.
    When the California aqueduct was built so that when it hits 
the San Andreas fault it actually then runs along it for a 
while so that after the offset they could just sort of come in 
and paste together back the ends and get it functioning again 
so it has been designed to be able to get back up and running 
quickly afterwards. As I said, all of the major water storages 
on this side of the San Andreas are by design.
    I understood that we had six months water supply stored on 
this side of the San Andreas fault at the present level of 
usage. This is one of the other really significant issues that 
you look at is that the population of California is growing 
dramatically and to what degree are these foresightful 
activities that were taken earlier have been able to catch up 
with the growth and population.
    Mr. Miller. But getting the water to these areas is a 
problem. I know MWD is trying to get a major 15-foot line down 
to South Orange County because I know they don't have the 
ability to transfer the water. Every one of our aqueducts has 
major transmission lines that are going to also be disrupted. 
It's scary what could happen if this whole system goes down in 
our region.
    I mean, if you look at not only the slides but the area I 
live in has major liquification problems. When this starts 
shaking this all turns into oatmeal. Everything just starts to 
slide and ooze and reach water level basically. I have too many 
questions.
    Mr. Shuster. I will ask for another round.
    Mr. Miller. Okay.
    Mr. Shuster. You talked about the unstable soil. Is that a 
widespread problem or is that localized? Can you say?
    Dr. Jones. There are two levels of concern on soils. One is 
the straight amplification. That is a simple thing where just 
whatever the speed of the seismic wave is, if you come into a 
slower rock the wave has to get bigger to carry the same amount 
of energy when it is slowed down. That is where we have about a 
factor of 5 under here and we have mapped it out for the 
California area.
    There is a separate issue of liquification which is where 
you have lose sandy soil that compacts during shaking and if 
there is water in the spaces where it is compacting, the water 
pressure goes up because it can't flow away in the time of an 
earthquake and it becomes temporarily quicksand. Quicksand does 
a notably poor job of supporting buildings.
    We tend to see buildings falling over when that happens. 
Again, the state of California has mapped out the liquefaction 
susceptibility. In the actual earthquake it will depend on what 
the water table is. It's the one good side to droughts. It 
lowers the water table.
    Mr. Shuster. And that's what happens when the water table 
rises into the soil.
    Dr. Jones. Well, the soil compacts and that forces the 
water pressure up so if there is water there--if there was no 
water there you could compact the soil and it wouldn't make a 
difference. If you really compact the soil you damage the 
buildings above it. We can map it out.
    One of the proposals actually under this new program is to 
do what we call microzonation mapping, to take the information 
we have about the shaking distribution or the soil distribution 
or the soil distribution and turn that into a microzonation 
map. Again, that has implications of what is going to be the 
effect on property values. We have now said this is a more 
susceptible region and that is a political issue that would 
need to be addressed if we really came up with the detailed 
maps. We could and have not yet.
    Mr. Shuster. How much interaction do you have with FEMA and 
the federal level when you are talking about issues like this.
    Dr. Jones. We have had less communication in the last five 
years. The headquarters is in San Francisco and I know the 
earthquake specialist very well, FEMA's headquarters. In 
southern California we tend to work more directly with the 
state and the locals. The city and the county are the ones that 
have the primary responsibility and we do a lot of work with 
them on getting the detailed maps.
     Mr. Shuster. That's a concern I have. If you have an 
earthquake of this magnitude, the state and locals are going to 
be overwhelmed and it's going to take the folks coming in, FEMA 
coming in coordinating Nevada and Utah the surrounding states 
to come in and help so it is important that there is 
interaction.
    Dr. Jones. I can say in North Ridge FEMA set up a disaster 
field center in Pasadena and we had a scientist permanently 
staffed there to provide the communication between the 
scientists and FEMA. We maintain staffing in their field office 
for six months.
    Mr. Shuster. You mentioned that the fires were probably the 
greatest concern.
    Dr. Jones. Yes.
    Mr. Shuster. Mr. Miller was talking about water and he said 
if you have an earthquake and you have all these fires, it is 
going to use up the water a lot quicker.
    Dr. Jones. It would. The other problem would be the actual 
distribution of the water. A lot of the water pipes are old and 
we saw in North Ridge it doesn't liquefy if there is no water 
in the soil but the soil still collapses and that damaged a lot 
of pipes in North Ridge. There is rather a famous picture with 
a water fountain with a fire fountain in the middle because the 
gas pipeline and the water pipeline broke at the same time. 
That is also going to impair our ability to fight the fires.
    Mr. Shuster. What is your level of concern with the dams in 
the region?
    Dr. Jones. The newer dams I feel pretty good about. I mean, 
we have had strong standards in California for a long time but 
the idea that we change the building codes and go forward has 
been the philosophy for the last seven years. Especially the 
newer construction now is built to very high standards. There 
are older structures especially in the San Gabriel mountains 
that potentially have flood plains coming down here that could 
definitely be addressed in a systematic study.
    Mr. Shuster. Is there potential for--I don't know if you 
are familiar with the Johnstown Flood in Pennsylvania in 1889.
    Dr. Jones. Oh, yeah.
    Mr. Shuster. Is there the potential for that type of--you 
have the earthquake, a dam breaks, and then you have massive 
loss of life because of--are the dams out there big enough?
    Dr. Jones. Yeah. There was a significant concern. Actually 
we came very close to that in 1971. That San Fernando 
earthquake damaged a dam in the San Fernando Valley with 50,000 
people in the flood plain below it. It was close. It had been 
6.9 instead of 6.7 the estimates are that it would have gone.
    Mr. Shuster. I have one more question and then I'll turn it 
over to Mr. Miller again for questions if he has any. Are most 
of your dams out here constructed of concrete or earthen dams 
or a little bit of both? You don't know?
    Dr. Jones. I am a geologist, not an engineer. I know we 
have both but I am not sure of the relative distribution.
    Mr. Shuster. Okay.
    Mr. Miller. I see Councilman Greg Norton back in the room. 
I would like to thank you for your hospitality. I hope I am 
sitting your chair and wearing it out.
    Mr. Norton. You are a little far right but that is all 
right.
    Mr. Miller. Story of my life. We talked about the water. 
Have you done any extensive surveys on that?
    Dr. Jones. No. Definitely not personally because--
    Mr. Miller. Maybe that is our next panel.
    Dr. Jones. I am not sure that anyone has quite done--this 
is where I was saying that we had been talking with OES about 
trying to bring the pieces together. One of our goals was to 
try to do a real end-to-end scenario. Let us take it all the 
way through and consider all of these aspects and that will 
show us where are the relative weaknesses.
    Again, that cost effectiveness issue. Maybe we are focusing 
on parts that are very expensive and aren't going to get us as 
much return and we don't really know because we haven't tried 
to look at the complete picture. There have been individual 
studies done on the water issue. MWD has done a lot of work. 
What we were talking about is trying to do it as a community.
    I can proselytize really easily here. The other Katrina 
lesson that I took home was that it was a systemic failure that 
took us to the different level. That is the problem that we do 
face here. It is one thing to say, ``Okay, here is the water.'' 
What if the water causes more fires? Or you want the 
electricity to be up and running. Edison can't sell to 
customers that aren't up and functioning but if they aren't up 
and functioning, these other businesses can't recover so there 
aren't isolated problems.
    It is how the system fits together that is really going to 
determine how we respond to this. I think that is one thing 
that this community has seen because we, unfortunately, have a 
lot of experience working together. We have had plenty of 
earthquakes and other disasters but it means that we have the 
connections and the relationships to get out there and start 
doing this broader picture approach.
    A lot of us have gotten together and said this is really 
what we need to do is go from the beginning all the way through 
the economics and through everything and see where the relative 
weaknesses are. Until we do that I don't think we know. We can 
recognize lots of potential problems. Which one is going to be 
our worse we don't know.
    Mr. Miller. You mentioned electricity and such. I know 
Edison and LA County Water and Power, most of their major 
transmission lines are very close to the San Andreas fault. I 
mean, it is amazingly close. What kind of destruction to you 
see in that?
    Dr. Jones. I am not sure. There are several variables that 
come in there. One is the level of how much we can do between 
now and then. I mean, there are a lot of transmission and major 
installations near the San Andreas fault and something like 90 
percent of the electricity for Los Angeles has to cross the San 
Andreas fault somewhere to get in here.
    I have also seen towers literally offset by three meters of 
offset during an earthquake still up and functioning and 
transmitting energy. There have been some very good engineering 
solutions applied. I am not sure where the level of disruption 
is going to be on that. I think also a lot depends on whether 
or not we trigger secondary fires because electrical systems 
are also quite suspectable to the fire damage. It is just going 
to be really bad luck if we have it during a Santa Ana 
condition. That is when it is going to go awful.
    Mr. Miller. If we have the big one we are just in serious 
trouble. That is all we can say at this point. Every major 
resource, transportation, utility, all our infrastructure 
basically is going to be impacted in a major way. We have 
talked about water, transmission lines, but all our 
communities' major water mains are going to blow. House 
connections are going to pull apart.
    It is going to be unbelievable to try to get water 
anywhere, to try to get transportation, goods and services 
moving. We are going to be in a similar situation as Katrina. 
How do you get goods and services in the area when our 
overpasses and our bridges and highways are torn apart? How do 
you get into the communities?
    Dr. Jones. I believe there are engineering solutions that 
could be done ahead of time to reduce the losses. It is not a 
technical decision. It really is a social decision on what is 
worth spending beforehand to reduce the losses after. We do 
have the information about probably what the damages are right 
now. We have the information of how likely these are to happen 
over the next 50 years. Then we have to make a decision on what 
we are willing to spend beforehand. We could do it. There are 
lots of technical solutions that could be added that haven't 
yet been done.
    Mr. Miller. Thank you very much. Appreciate it.
    Mr. Shuster. Thank you, Dr. Jones.
    Dr. Jones. Thank you.
    Mr. Shuster. One last question. I guess the final question 
is it is not a matter of if it happens, but when it happens.
    Dr. Jones. It is absolutely when. It may not happen in our 
lifetime but it is absolutely when. We aren't stopping plate 
tectonics.
    Mr. Shuster. Thank you again and appreciate it. You are 
very informative and we appreciate you being here today.
    Dr. Jones. Thank you.
    Mr. Shuster. Now I will call our second panel which is 
comprised of a number of state and local officials who 
individually have responsibility for disasters of all types 
here in California. Why don't you come up and we will take a 
couple-minute break here while they get seated and stand in 
recess for just a couple minutes.
    [Whereupon, the Subcommittee recessed to reconvene the same 
day.]
    Mr. Shuster. The Committee will come to order. Joining us 
today we have Mr. Henry Renteria, Director of the California 
Office of Emergency Services. Mr. Ellis Stanley is the 
Emergency Manager for the City of Los Angeles. Ms. Ann-Marie 
Hayashi, Emergency Services Assistant for the City of Whittier. 
Did I get it right?
    Ms. Hayashi. Hayashi.
    Mr. Shuster. Hayashi. I am sorry. Since your written 
testimony has been made a part of the record, the Subcommittee 
requests that all witnesses limit their oral testimony to five 
minutes. There will be time for questions after all the 
witnesses have offered their prepared remarks. We will start 
with Mr. Renteria. Thank you for being here today. You may 
proceed.

  TESTIMONY OF HENRY RENTERIA, DIRECTOR, CALIFORNIA OFFICE OF 
  EMERGENCY SERVICES; ELLIS M. STANLEY, SR., CEM, CITY OF LOS 
 ANGELES EMERGENCY PREPAREDNESS DEPARTMENT; ANN-MARIE HAYASHI, 
              CITY OF WHITTIER EMERGENCY SERVICES

    Mr. Renteria. Thank you, Chairman Shuster. Good morning and 
good morning to the members of the Subcommittee. Thank you for 
the opportunity to be here today to address you on this very 
important topic.
    Let me start off by since you are in southern California we 
arranged for good weather so I am going to give you a movie 
now. We will start with a very short video that talks about our 
emergency management system in California which I think will 
set the stage for our other speakers also.
    [Whereupon, a video was presented.]
    Mr. Renteria. Okay. The last time I showed this video at 
another hearing, one of the Committee members asked me when he 
saw the levels of response up there, field, local operational 
area and state, they noticed that the federal government was 
not on there and there is a reason for that. The way our system 
is designed here in California and in my 30 years of experience 
as an emergency manager, FEMA, the federal government, has 
never been a response agency.
    It has been a recovery agency. It has been an agency that 
comes in to support state and local government after the event 
happens. So having said that, one of the things that I think 
this Committee can help us with is embedding FEMA into the 
response mode if, in fact, that is the direction they are going 
to go because that is one of the things that I think they have 
been criticized about but, at the same time, they are not a 
response agency.
    Response happens at the local level. The local government, 
city, county, special district, and the state are the ones that 
first respond to an event. The federal government, even though 
we do use federal assets, national guard, other federal 
agencies that may be in the area, we cannot look upon the 
federal government as a response agency in the immediate 
aftermath of an event. I think that needs to be kept in mind.
    Having said that, we have learned a lot of major lessons in 
the history of disasters that we have had in California. 
California is no stranger to disasters. In my 19 years as 
Emergency Manager for the City of Oakland I had eight 
Presidentially declared disasters in Oakland and Alameda County 
including the 1991 fire storm, the '89 Loma Prieta earthquake, 
and several winter storms and other fires in that area.
    California has learned from its disasters. I have always 
said that experience is not what happens to you. Experience is 
what you do with what happens to you. We have taken the lessons 
learned from our events and incorporated them to prepare for 
the next one.
    I also want to point out that one of the problems we have 
in responding to disasters and preparing for them, and I think 
I can say this for other states in the United States also, is 
that we are very prepared for what I call high-frequency and 
high-risk events. Things that happen all the time that we are 
ready to respond to.
    For example, wild land urban fires, regular fires that 
firefighters respond to, hazardous materials incidents, 
transportation accidents. Even moderate earthquakes I think we 
do very well because they happen to us all the time. We train 
for them but we also respond to them. By responding to them we 
get that hands-on experience.
    What we are not ready for is what I call the high-risk, 
low-frequency events and that Katrina was a high-risk, low-
frequency event. The earthquake Dr. Jones just described to 
you, again, is a high-risk, low-frequency event. We haven't 
experienced those things yet so major lessons are coming out of 
that. You can train for those types of things but until you 
have actually gone through one it is not the same.
    What we have learned from these events, especially with 
Katrina, things that are coming out now, we can also apply to 
lessons that we have learned. We still have issues and problems 
across the country and also in California with issues of 
evacuation. The evacuation of large populations is a problem. 
We have never done that before. Even if we do evacuate large 
populations, where are we going to put them? Mass care and 
sheltering of those populations.
    We have a problem with special needs populations. The 
elderly, the frail, the poor, the non-English speaking. Those 
are all major problems we need to face right now. Alerting and 
warning, ability to get rapid, concise information, confirmed 
rapid concise information to not only our first responders but 
also to the public. We need to look at our alerting and warning 
systems and how we incorporate those all the way from the state 
level down to the local level.
    And constant public education. We do a lot of public 
education for people to understand the hazard that they live 
with. We all move to areas where there are hazards. I don't 
care where you live in the United States you are subject to 
some kind of hazard. The object is, again, to educate people 
about your surroundings, educate people about what you can do 
to prepare for that type of hazard and, more importantly, 
survive.
    Ten years ago we adopted the California Standardized 
Emergency Management System which you just saw in the video. 
CSEMS has been proven to work. We have used it over the last 10 
years. It is a system that was born out of the Incident Command 
System of the Fire Service. ICS is a perfect model to use when 
you have multiple agencies responding to an event that requires 
multi-agency command, centralized decision making, and the 
utilization of many resources from different areas.
    We learned some major lessons in the 1991 fire storm. Like 
I said, that happened during my watch. One thing I have always 
said is never burn down an elected official's home because it's 
going to result in legislation. That's what happened with 
CSEMS. One of our elected official's home burned down and the 
next thing we knew we had that legislation but it has been a 
God send for us in California because it has now organized and 
provided an emergency management system that can be used not 
only at the local level but all the way up through the state.
    And also, as the video mentioned, just in this last year 
the National Incident Management System has been adopted by the 
U.S. Department of Homeland Security. NIMS was patterned after 
CSEMS so that is a high compliment to the state of California 
that the federal government used that system.
    Mutual aid is also a major component of CSEMS and NIMS. Our 
mutual aid system has been in place in California for several 
decades and has proven again that our fire and law services, 
which utilize the system more than anyone else, has shown how 
that system works and neighbor helping neighbor. The ability 
for one city to ask request from another city or the county or 
even the state to allow resources to be sent to the impacted 
area.
    One thing I do want to point out is that California is very 
resource rich. We have a lot of first responders, a lot of 
resources in California. A catastrophic event like a southern 
California earthquake, yes, we would need help from other 
outside sources but the first wave of assistance would come 
from northern California from our fire departments and police 
departments up in the north. They would be the quickest to 
respond.
    In this past administration Governor Schwarzenegger signed 
legislation for the state of California to be entered into the 
Emergency Management Assistant Compact, EMAC. EMAC is a mutual 
aid system for state helping state. California now is part of 
that system. Forty-nine of the 50 states are part of that.
    That allows us to request assistance from Nevada, Arizona, 
or Texas if we needed to. We utilized the system in Katrina. 
California sent 6,500 personnel to the Gulf Coast to support 
the response and recovery efforts. By having EMAC as part of 
the state system that increases our ability to prepare.
    Training obviously is something that cannot be taken 
lightly. You train until you get it right and then you train 
again. Training is the backbone of our system to respond but, 
again, training and actual response also work hand in hand. The 
ability to continue to have these types of training and also to 
have all-hazards approach to training, not just a specialized 
type of approach, will help our disciplines across the board. 
The consequences of a disaster regardless of whether it's an 
earthquake, a terrorist event, a flood, the consequences are 
the same. People's lives are impacted. People get killed. 
People are hurt. Property is destroyed.
    Communication. It has been said enough but communication is 
the key to what we do here. Not only radio communication, the 
ability for first responders to talk to each other and talk to 
the central command post, but also the ability for emergency 
managers to communicate with each other, for elected officials 
to get up to date information on what is happening so they can 
respond to their constituents. Communication is a major key of 
what we do and major component of our systems.
    We do have problems that have been identified in the arena 
of interoperability. We are working closely with our local 
governments to develop some systems that will support the state 
of California but I think this is a problem that is widespread 
throughout the country. We do need to address this issue of 
interoperability. We have identified some solutions at the 
local level. There are some real success stories in California, 
San Diego, here in the Los Angeles area.
    Also in the Bay area some local governments have joined 
together in a mutual cooperation and identified some systems 
that we call the Gateway Project. Gateways are the black boxes 
that you have heard about where radio systems can literally be 
plugged in in order for responders to talk to each other. We 
need to spread that not only state wide but also throughout the 
nation.
    I talked a little bit about resource acquisition. Of course 
needing to identify where the resources are in a timely and 
efficient manner is imperative. It is one thing to know where 
resources are but how quickly can they be deployed and how 
quickly can they be sent and arrive where they need to be. 
Databases need to be kept updated which are crucial to the type 
of work that we do. If we did have warning of an impending 
event such as a Katrina, resources then can be deployed and 
prestaged in areas where they can best first respond.
    I also need to talk about people. Not only do people become 
victims of disasters but people also are the true first 
responders. When something happens in that first few seconds 
and minutes after the event, it is neighbor helping neighbor. 
It is people helping each other and the more skills that they 
have and the more awareness that they have the more lives that 
are going to be saved.
    When Loma Prieta hit in the Bay area and that freeway 
collapsed, the first people who were crawling all over that 
collapsed structure were people from the neighborhood. It was a 
noble and proud and courageous effort but it was also not a 
very wise effort because they didn't have the training to do 
what needed to be done and they were putting themselves in more 
harm's way.
    Programs have been put in place to help train citizens and 
employees to be more prepared and we need to concentrate and 
put more emphasis on that type of training and that type of 
assistance because our neighbors and our co-workers are really 
the true responders.
    Some lessons learned. While we plan for the next disaster, 
we can't always just look at the last disaster, although there 
are some very valuable lessons there. There are things like you 
saw today in Dr. Jones' presentation. There is new information 
coming out every day. Earthquake science to me is a work in 
progress and we have made a lot of progress in it.
    Hearing Dr. Jones brings to mind from the first time I 
heard her that earthquakes don't kill people, buildings do and 
infrastructures do. The more you know about your surroundings 
and the more we do to invest in the mitigation of these types 
of events, the better off we are all going to be.
    Let me close by also just pointing out that since September 
11th I think this country has invested quite a lot of time, 
energy, and money into preparing us for terrorism. I applaud 
that effort but we also need to be reminded that we haven't 
really invested that much in all-hazards planning. The amount 
of money that has been allocated for preparedness for 
terrorism, I think, has also hurt us a little bit, not a little 
bit but a lot, in dealing with the natural hazards and 
disasters that happen all the time.
    Since September 11th there have been no terrorist events in 
California. There have been six presidentially declared 
disasters since September 11th. What do we need to do now? 
Well, mitigation is another arena that I think you can help us 
in. There is a saying that for every dollar you spend on 
mitigation you say three dollars in recovery cost. That has 
been a proven fact.
    The efforts that our local emergency managers are having to 
deal with to deal with the emphasis of where the resources are 
going to come from to continue their programs is important to 
keep in mind. While the state continues to work with our local 
emergency managers and the local governments to make sure that 
a system like CSEMS is in place, it gives us the reassurance 
that some of the things you saw in Katrina I really doubt would 
happen in California because of the systems we have in place.
    Are we as prepared to deal with anything? No. There are 
things that we still need to be prepared for. The lessons 
coming out of Katrina are going to just improve our plans and 
preparedness and allow us the ability to be better prepared in 
the future. So, again, I have a lot of confidence in our 
system. I have a lot of confidence in our first responders and 
in our emergency managers and state. They do have a proven 
system that works.
    With that I'll close and entertain any questions if you 
have any.
    Mr. Shuster. Thank you very much. Appreciate that extensive 
and thorough testimony. Your reputation precedes you. You are 
one of the best in the country in emergency management. Thank 
you for being here also.
    Mr. Renteria. Thank you.
    Mr. Shuster. Mr. Stanley, you may proceed.
    Mr. Stanley. Thank you, Mr. Shuster, and welcome to 
southern California, and Mr. Miller. I am glad to be here. My 
name is Ellis Stanley. I am the General Manager for the 
Emergency Preparedness Department for the City of Los Angeles. 
I have over 30 years of experience in emergency management 
starting on the eastern coast, Mr. Shuster, dealing with little 
things like fixing facilities, hurricanes, chemical issues, 
etc.
    I move from North Carolina to Georgia working in Atlanta 
with major events and things like Olympics, etc. Now I am here 
in the second largest city in the country. That is only 
important from the standpoint that it is all about disasters 
being local. It has to do with development partnerships no 
matter what size that jurisdiction is and being able to build a 
cultural preparedness at the local level and that permeates up.
    That is emphasized, as Mr. Renteria said, best, I think, in 
California with the CSEMS and now with NIMS which is mimicking 
that CSEMS process that we had to say that we can work, our 
tools will interact, our training is overlaid, etc. It is 
important that we have that type of partnership and 
relationship.
    Mr. Renteria really hit on the basis of the emergency 
preparedness philosophy and all those things. What I would like 
to do is just talk with you about a few of the things that we 
have just done locally in the past two weeks. Last week we had 
a major exercise with the City of Los Angeles with Burbank, the 
two airports, looking at how we could deal with emergencies 
that may occur at those airports.
    Why that is important is now we look at things, as Henry 
indicated, from an operational area perspective, from an urban 
area perspective. Last year we had a MetroLink train 
derailment. Disasters have an odd way of just not reading our 
plans at all. This train had the audacity to have an accident 
right on the border of two cities. It was a seamless response.
    Glendale and the City of Los Angeles came together and 
responded. What happened equally is those outside agencies, 
those public and private hospitals, those 15 hospitals that 
were folded into the process seamlessly to be able to take 
those patients and to resolve that incident. Fortunately, only 
11 people lost their lives but it could have been hundreds of 
people in that situation. It is important that we not only look 
at what is in our boundaries but also look at what is next to 
us.
    To that end we do an emergency management workshop every 
day--every year. I wish we could do it every day. We do it 
every year. The workshop we take 150, 170 people off site. 
Usually it is up at Lake Arrowhead. This past year we had the 
17 contiguous cities to Los Angeles to have them in our 
training, in our planning, in our exercising so that we 
understand what capabilities we have, what gaps we have, and 
how those capabilities and gaps can be shared and how the gaps 
can be filled. It is important that we do that.
    Many of the smallest cities cannot man or spend the money 
for an urban search and rescue team. The city and county of Los 
Angeles can so it is important that we understand how and when 
those resources will be called upon. It is important that we 
have a very strong mutual aid.
    Also yesterday, as a matter of fact, we had an executive 
level training that was conducted by Naval Graduate School. 
It's from the high sheriff to the department heads to sit 
around the table and look at what is missing, if we have a 
scenario how are we capable of dealing with it.
    One of the issues we are also dealing with this week is 
pandemics. We understand whether it is a biohazard created by 
men or whether it is something like the bird flu we have to be 
able to do those things that we have a capability to handle. 
For example, it is very little that we as a city can do about 
producing the necessary vaccines for this particular bird flu 
but we can deal with the need to be able to determine how we 
are going to prophilax our people and we do that through 
exercises, etc.
    My last comment, since I have got the red light, is that 
the private sector is another one of those partners in 
preparedness that we do a lot of work with. In our emergency 
operation center we actually have a seat in there for the 
private sector. They provide 85 percent of the critical 
infrastructure resources in this country. It is important that 
we have a way to plug them into the process both beforehand, 
during, and after the fact.
    I will be glad to answer any questions at this time.
    Mr. Shuster. Thank you, Mr. Stanley. Just one point to 
clarify. The City of Los Angeles, how much does it make up of 
the County of Los Angeles?
    Mr. Stanley. Approximately a third. There are about 4 
million people, 500 square miles in the City of Los Angeles. 
The County of Los Angeles is 4,200 square miles, 10 million 
people.
    Mr. Shuster. Are we in the County of Los Angeles?
    Mr. Stanley. We are in the County of Los Angeles.
    Mr. Shuster. All right.
    Ms. Hayashi.
    Ms. Hayashi. I would like to welcome you to Whittierand 
thank you for inviting me to testify today on behalf of the 
City. I was asked to testify about what the federal government 
could have done better to assist the Cityof Whittier after the 
1987 Whittier Narrows Earthquake.A little background on the 
earthquake: there were actually two large earthquakes, as you 
have already heard.
    The first on Thursday, Oct. 1st (magnitude 5.9), and then a 
large aftershock on Sunday, Oct. 4th (magnitude 5.5). It felt 
like two totally separate earthquakes. That is how strong the 
aftershock was. Together, the two quakes caused $78 million in 
damages to Whittier houses and businesses.
    In order to arrive at some recommendations as to how the 
federal government could have provided better assistance to the 
city after the earthquake, I'd like to give a short background 
on Whittier's emergency preparedness activities prior to the 
earthquake. The assignment of emergency services coordinator 
had been given to the then-human resources director, who took 
the extra assignment very seriously and designed various full-
scale disaster exercises for City employees and other agencies.
    There was no statewide standardized emergency management 
system yet. CSEMS did not exist at the time, but Whittier and 
other California cities had been required by the state to adopt 
Emergency Services Ordinances and prepare emergency plans.
    Compared to New Orleans with its different levels of 
government such as wards and townships, Whittier's governmental 
structure is simple. We have one City Council and it is 
supported by the commissions and committees. By declaring a 
local emergency within four hours after the quake, our City 
Council was able to initiate theprocess for making financial 
grants and loans and other resources available to the citizens 
of our community.There were several key issues, such as the 
need for many more building inspectors. The City was fortunate 
in many ways:
    1) The state had registered volunteers to assistwith 
building inspections;
    2) The earthquake happened right after the annual 
convention of the International Conference of Building 
Officials, so the connections our building staff had made at 
the convention were fresh and resulted in manybuilding 
officials offering assistance;
    3) Also we have many large cities nearby and they also sent 
their building inspectors to supplement our small crew.
    Most important of all, there was not the widespread 
regional damage that Hurricane Katrina caused, so we had local 
resources available that would have been tied up in a regional 
disaster. Adequate staffing was never an issue.
    City Hall and Police Department employees all reported for 
work, and the police were able to immediately cordon off the 
devastated Uptown area. City clean-up was facilitated by the 
fact that most of our residents were able to remain in their 
homes and therefore were able to do their own cleanup and even 
volunteer to assist others.
    So what did the federal government do in 1987, and could 
things have been improved? The Whittier City Council and 
employees understood that disasters happen at the local level, 
so that's the level at which we need to be prepared. Key people 
who were in positions of responsibility at the time of the 
Whittier Narrows Earthquake agree that Whittier was not waiting 
for the federal government's assistance; we had no expectations 
for, and were not dependent upon, immediate federal response. 
Our former Building and Safety Director said, ``There was no 
lack of assistance from FEMA, but we contacted FEMA only for 
advice, for example, onreimbursement parameters.''
    FEMA, state OES and the Small Business Administration did 
set up financial aid facilities in town, but the strongest 
recommendation for improvement I encountered was that the 
Disaster Assistance Center should have been set up sooner (it 
was set up ten days after the first earthquake, and only after 
much communication from City officials to our congressman as to 
the urgency of the matter.) Other comments include:
    1) FEMA should have sent at least a few representatives 
immediately after the earthquake to observe the damage and send 
firsthand comments back to D.C. The geographic distance between 
Whittier and D.C. was quite great so, therefore, FEMA was 
removed from the event and had a different perspective of the 
destruction that had occurred;
    2) The Disaster Assistance Center was limited in terms of 
the type and levels of aid it could offer. Many senior citizens 
on fixed incomes did not qualify for the loans and grants 
available because of the compressed repayment periods on the 
loans and the very high minimum payment amounts;
    3) There was poor coordination between funding sources such 
as insurance companies and governmental assistance; and
    4) Earthquake victims found the forms difficult to complete 
and desired more assistance from either volunteers or 
professionals. I would like to add that the FEMA 
representatives who did come to Whittier were very professional 
and extremely helpful.
    As devastating as the Whittier Narrows Earthquake was for 
Whittier, the damage was intense in an area much smaller than 
the area affected by Hurricane Katrina. A more comparable 
situation would be an earthquake with widespread regional 
destruction, such as most of southern California. We would most 
assuredly be looking for more state and federal assistance in 
that situation, with all local resources stretched extremely 
thin.
    Such a regional earthquake would also cause widespread 
damage to major components of regional infrastructure, 
something that did not happen in 1987. One thing that this 
points to, the difference between what happened then and what 
can happen here is the importance of perhaps our final 
recommendation and that is coordinated training and exercises 
for what Mr. Renteria describes as the very high-impact and 
low-frequency events. We do practice frequently at the local 
level coordinating at the operational area level and it would 
be a good idea to extend that beyond and be better prepared for 
regional events.
    As mentioned earlier, even though shelters were necessary, 
the vast majority of Whittier residents were able to remain in 
their homes, return to their jobs, and clean up the rubble. 
They were able to volunteer in numbers to assist their fellow 
citizens. All this is unlike what happened in the immediate 
aftermath of Hurricane Katrina, andwould not necessarily be the 
case in a more massive, involved California earthquake.
    I would like to thank the Subcommittee for inviting the 
City to testify, and thank your staff for their help. I am 
happy to answer any questions you have, or help find the 
answers for you at any time.
    Mr. Shuster. Thank you very much. Appreciate it.
    I have a couple of questions. First I want to say just how 
important it is to be in California because when you look at 
emergency management across the nation, the two states that the 
federal government should be looking to is California and 
Florida because you have extensive experience. Not only 
extensive experience but successful extensive experience. You 
have the resources and I think you have the structure in place.
    My first question is, if you would, the three of you, and 
it appears we have tremendous experience with the three of you 
over a period of time, can you look back over the last 10 years 
and grade FEMA 10 years ago, five years ago, and the last two 
years to give me a sense of where you think FEMA has gone over 
that period. So 10 years, five years. Ten years ago would be 
the middle of the '90s, five years would be pre-9/11, and then 
the last two years when FEMA has gone into DHS. Give me a sense 
of where you think it has gone.
    Mr. Renteria. I will be glad to start. My experience with 
FEMA started in 1985 when I first came on into the field of 
emergency management. I still feel that their role has not 
changed. They are not a response agency and I think that is 
unfair to tag them as such.
    On the other hand, I think FEMA's high point, their high-
water mark, was in the '90s when they took on the role of 
mitigation. I think when FEMA really grasped mitigation by the 
collar and said, ``We are going to do something in this country 
about that,'' I think that was the high point in my experience 
in dealing with FEMA. They were always a responsive agency when 
it came to dealing with the recovery efforts. The relationship 
that you set up with them beforehand also helped through their 
regional offices.
    Again, I think their high mark was the mitigation program. 
I will point specifically to Project Impact. Project Impact was 
one of those programs that put actual dollars into preparing 
the community for the next event. Also as a result of that, 
there are now, and you are still funding, the hazard mitigation 
planning grants.
    After a disaster there is a percentage of the total cost 
that are set aside for mitigation programs. That has been a God 
send to us. We can show you specific examples throughout the 
state of how mitigation money has been used to prevent another 
disaster from happening. That was the high point.
    I think the down turn has been in these last few disasters 
where the focus has been on FEMA as a response agency. ``Why 
weren't you there? Why didn't you have the troops on the 
ground? Why didn't you have the resources there?'' That is 
really a local responsibility. By local I mean the cities, the 
counties, and the state. It is our responsibility to deal and 
prepare for those types of things. Do we need FEMA to be part 
of that team? Absolutely. I really would urge us to look at how 
FEMA can be put into the response mode if that is the direction 
they are going to take.
    One of the disadvantages that FEMA has is they are not all 
things to all people everywhere at the same time. There is an 
assumption made that FEMA has these warehouses somewhere full 
of supplies. That is not the case. There needs to be a 
coordinated effort to provide those resources where needed.
    Also I will caution let us not go back to the Cold War era 
where we started stockpiling basements of schools with supplies 
that had no plan for replenishing those supplies. They got 
outdated. In fact, we are still digging some of that stuff up 
and throwing it away because that was a program that was failed 
from the very beginning.
    Again, what can we do about that? One of the things we are 
doing in the State of California, and Ellis has been working 
very closely with us on this, is developing pubic/private 
partnerships, bringing the private sector into this mold and 
having them be part of the solution and not part of the 
problem.
    Companies and businesses that are housed in California have 
resources as you saw in Katrina. Pre-existing agreements with 
private industry I think would help us get resources quicker. 
Can FEMA help us with that? I think there are some issues there 
that the federal government has to address and we will go 
through FEMA to address them. I am sorry that I ran over but I 
think those are some of the things that are more exciting.
    Mr. Shuster. Mr. Stanley.
    Mr. Stanley. I have fortunately, or unfortunately, have 
been around at the birthing of FEMA in 1979 by President Carter 
and I have seen FEMA grow. I have seen it at the best of times 
and I have seen it at the worst of times. I have seen it back 
when Hugo and they kind of fell on their face in that response 
to a hurricane and they did a much, much better job with Andrew 
when that was a major catastrophic event on the eastern coast.
    I have seen it with generals at its head. I have seen it 
with other political appointees at its head. I have never seen 
it better than when it had an emergency manager at its head to 
be able to run that organization as a professional organization 
with competency in the areas of emergency management.
    It is said that where you stand is determined by where you 
sit. It sat at the cabinet level and was able to with very 
strong, strong relationships with the President and the cabinet 
able to implement and get things done in a way that bought 
pride to the citizens and pride to the government in that 
response. At the worst of times I think we have all seen that 
in our recent times when it fumbled the ball. I think it comes 
down to about having strong competent leadership no matter 
where it sits in the organization.
    Mr. Shuster. Ms. Hayashi.
    Ms. Hayashi. Well, I don't have the breadth of experience 
and exposure to FEMA that my colleagues have so if you did 
compare FEMA's response to the Whittier Earthquake and then its 
very recent response to the January and February storms of last 
year, I would say that the comments hold that I made in terms 
of the Whittier Earthquake. FEMA was slow to respond with a 
disaster assistance center and because we had so many of our 
residents experiencing damage to their homes and some of them 
displaced there was a great need for that.
    With the more recent federally declared disasters, and 
there were two of them, I can't fault FEMA at all. They were 
here in a very short period of time. It is a little different. 
We didn't have people displaced from their homes but they were 
here in full force, extensive field visits, working on project 
worksheets in a very timely manner.
    The Hazard Mitigation Program Mr. Renteria mentioned was a 
great plus because you don't want to necessarily put things 
back the way they were pre-disaster. Often times there are many 
better ways to construct something and hazard mitigation 
projects recognize that and fund that so we are appreciative of 
that effort.
    Mr. Shuster. I am going to turn it over to Mr. Miller for 
questions. Before I do that, I want to make a statement. As we 
are going to move through Congress legislation, and I don't 
know what it is going to look like at the end whether you take 
FEMA out or leave FEMA in DHS, but that whole structure is 
going to change, it is absolutely critical that you folks at 
the local and state level are communicating with us because as 
things happen in Washington sometimes, Congress has one 
thought, the administration another and we get into this 
headbutting.
    It is so important to hear from you for you and to engage 
your members of Congress and talk to them about what your 
experience has been and what you would like to see because FEMA 
should not be--we are not going create a national fire company 
that sits around waiting. We have to depend on first responders 
locally and at the state level to do that but they need to be 
involved at all levels whether it is preparedness, response, 
recovery, or mitigation.
    I would urge you to engage your members of Congress. Mr. 
Miller comes from a background and has been here in Whittier 
and has seen it firsthand but I don't think most members of 
Congress have that experience. I know I didn't, until I sat on 
this Committee, really develop a better understanding. So I 
would encourage you to engage fully in this debate.
    Mr. Miller.
    Mr. Miller. Thank you. I have attended numerous hearings in 
Washington on Katrina. Not on the Transportation Committee but 
on services we have HUD, Housing, and such. Your testimony is 
refreshing and I have to say I agree with it. There has been a 
lot of fingerpointing that has gone on. I agree with your 
statement that the feds are to assist and locals are to be the 
first responders.
    We witness that here in California time and time again. Two 
years ago we had the major fire that started in Lava Creek in 
the San Bernardino County and went all the way through LA 
County. I watched all the local agencies of the state get 
involved and do a wonderful job. The federal government came in 
and assisted. We just recently had a fire in the Cleveland 
National Forest in my district.
    It was amazing all the local fire agencies. It is like a 
brotherhood out there, fire and policemen. They just all 
cooperate from city to city and county to county. I called out 
to the fire agencies and said, ``Can we assist you?'' They 
said, ``We are doing just fine. The local resources are all we 
need.''
    There was a huge disconnect in Katrina between the local 
and state government. Some of your states that we witnessed 
that testified said, ``We are in charge. We are in control. We 
are dealing with it. We are going to need some help in 
infrastructure getting the water systems back, our highways 
back in place, electrical services, those type of basic 
needs.''
    The federal government comes in after the fact, as you so 
stated, and assists but this mutual aid that we have in 
California works very, very well. I wish more states would use 
what we do here as a pilot program for their states because it 
does work. Then the federal government has never moved rapidly 
on anything.
    The only thing we really do well is fight wars and some 
people argue we don't even do that well anymore. We are a huge 
elephant. We don't move like the local government does or state 
government. We are responsible for a much larger area and to 
set up, like you said, local agencies and warehouses just 
doesn't work. Everything is antiquated before it is even 
utilized.
    I guess, Mr. Renteria, my question is how do you feel the 
federal government fits into California's emergency management 
plan in response? How do you see them fitting in?
    Mr. Renteria. Well, again, I view them as a partner in the 
recovery and also a partner in resource providing, providing 
resources to us that we may not have in California and those 
are federal resources. Before we can even get to that stage, I 
need to know what they have. I need to know what they have to 
deploy, where it is, and assist them in the process for how to 
request it.
    Because we do have systems in California that makes that 
type of request almost seamless through our mutual aid system 
and through our ability to respond to neighbor helping 
neighbor, I would like to set something up like that with the 
federal government, too, without expecting everything and all 
things from them. I know the limitations everybody has. To make 
them come to the table to sit with us as we do with out locals, 
FEMA should be at the table with us when we are planning our 
plans here, responding to things here. It seems like for 
whatever reason that has not happened in the last few years.
    Mr. Miller. So you don't think the feds are integrated in 
California's disaster response at this point the way they 
should be?
    Mr. Renteria. The way they should be. Correct. I think they 
need to be brought into the fold.
    Mr. Shuster. Mr. Stanley.
    Mr. Stanley. I would like to answer that. We have actually 
two federal governments in our scenario here. Dr. Jones, for 
example, is with the federal government but you wouldn't know 
it. She is local. She lives in this area and she is part of 
this process. We have local FBI. We have local DHS with the 
Secret Service, with the Coast Guard. They are part of our 
local planning response, exercise training.
    We run into troubles when the other federal come into town 
out of the Beltway. That is the different federal that we have. 
On a day-to-day basis it is a very seamless response. That 
mutual aid that we are talking about is horizontal and 
vertical. The exercise I talked about yesterday had sitting 
around the table FBI. We had Secret Service. We had U.S. Coast 
Guard. We had all of the players, the State Highway Patrol, 
etc. It is a different relationship when you kind of come in on 
the white horse out of the beltway and then there is a 
different saluting mechanism, if you will.
    Mr. Miller. They don't understand your local needs.
    Mr. Stanley. They are not plugged in effectively with the 
local needs. We do have catastrophic response plans. We know 
that we could be overwhelmed. The scenario in which we dealt 
with was dealing with 100,000 casualties. Now post-Katrina that 
may have been too optimistic. I mean, we probably should have 
looked at something different.
    Mr. Miller. Ms. Hayashi, what sort of things do you 
recommend we do in the future to speed up the process or make 
it more efficient for the locals?
    Ms. Hayashi. Well, to speed up the process, and I know it 
would take a while to mobilize such a large organization, but 
to send out for example, a scout team for lack of a better 
word. People from FEMA who are then connected with their 
colleagues in D.C. who would get back first hand reports that 
they would understand and it would be credible.
    I mean, we had a lot of communication but somehow I think 
just because of the geographic distance it just didn't ring 
home. Perhaps if one FEMA to another if they are speaking and 
some are here, they would be able to more quickly put together 
an effective response team.
    Mr. Miller. I want to thank you because there is a lot that 
you have demonstrated to us today that we need to do and a lot 
of information that I have learned from your testimony to take 
back to Washington that I think is very viable. We have had too 
many, in my opinion, just come back to Washington and point 
favors that we weren't there first, we didn't have what we 
needed on the field. They forgot to look at the locals who are 
responsible.
    I think local government is the best government. You are 
right there with people. You know the local needs. You know 
what you are going to face, what you have to deal with. 
Washington is 3,000 miles away. The best they can do is glean 
from what we tell them. That is why I thank Chairman Shuster 
for coming out here today. This is refreshing. It is good 
information we need.
    It is information I think that we can give to our 
colleagues that hopefully it will transfer to their state and 
local governments so you can be prepared, understand who is 
responsible, understand that the federal government is there to 
assist and provide what you do need. After the main first 
response that is when we have the ability to come in and assist 
you with the resources that we have and get you back on track. 
I appreciate your testimony.
    Mr. Shuster. One more question. The Katrina committee came 
out and looked at the response five days before and five to 
seven days after. The findings appear to support five general 
reform principles and I'm going to tick them off quickly and 
just get your general impression. Catastrophic disasters 
require early presidential involvement to engage federal 
resources, one.
    Large disasters require DOD support. Again, we are talking 
about a catastrophe like Katrina, a 7 or 8 earthquake here in 
California would be what we are talking about. Third, the 
disaster preparedness functions need to be closely integrated 
and managed with response functions.
    FEMA's essential response capabilities must be restored and 
enhanced, the professional workforce, logistics, things you 
mentioned here today. And the tension between the nation's 
hazards emergency management system and terrorism preparedness 
needs to be resolved. I'll go over those points if you didn't 
get them all. The first one is requiring early presidential 
involvement.
    Mr. Renteria, when there is a disaster in California do you 
have the Governor's ear? I mean, do you have direct access to 
him?
    Mr. Renteria. Back to what Ellis said earlier about the 
structure of FEMA. In California I sit on the cabinet. I am a 
cabinet member. I was hired by the Governor. He is my 
supervisor and I directly report to him. Whenever there is an 
event, to be honest with you, he calls me. He hears about 
something and he is on the phone saying, ``What's happening? 
Give me an update.''
    The first question out of his mouth is, ``Is this a 
declared event? Do I need to declare an emergency?'' He is in 
tune with that process and that is my recommendation that I 
would make to him based on information that I am getting from 
the locals. They are in constant communication with our state 
operation center so, yes, that is important. The Governor can 
declare a local state emergency and then that request is 
forwarded to FEMA, or the President, rather, for a federal 
declaration.
    A lot of that depends on information, too. I mean, please 
bear in mind I hear loud and clear that we need to be quick and 
rapid in our response and getting declaration made but the last 
thing we want to do is be premature, too. It doesn't hurt to 
make a declaration 24 hours after or 48 hours after. I mean, 
that is not going to hurt our response. We are going to respond 
regardless of whether it is a declared emergency or not.
    Obviously we don't want to wait 10 days after an event 
before we have something happening. The matter of hours doesn't 
make any difference because locals will respond immediately. We 
will be in touch immediately. The State of California also has 
a California State Warning Center.
    It is a 24-hour dispatch communication center that is 
linked to every single 911 center in the state. We have rapid 
real time information. Who are we getting it from? From the 
local first responders. And, quite honestly, from CNN and Fox 
News also. We need to remember that they are part of this 
equation. The media is our best friend and our worst enemy in a 
disaster.
    They need to be brought to the table, too, because they 
have a lot more resources than we do and they are on the scene 
first and they need to be responsible in their reporting 
because they have, has Katrina showed, a lot of misinformation 
that went out there that was unfairly criticized of the 
federal, state, and local government that never was true.
    Mr. Shuster. Mr. Stanley.
    Mr. Stanley. I concur with what Henry has said. I would 
like to go where no one has gone today yet and that is to talk 
about that money issue. When you talk about all of those five 
points and you talk about--and you ask yourself the question 
have we invested sufficiently in our emergency management 
program in this country, one of things you can't look back at 
when FEMA was at the best of times is the EMPG, the Emergency 
Management Performance Grant.
    Why don't we have an emergency manager in every 
jurisdiction in the country? Is it that difficult to do? Two 
years ago when Mr. Renteria's organization did a survey, I 
think there was a $267 million gap in the needs and what was 
available. Now we have got a $13 million cut in those EMPG 
monies.
    Which way are we going? How are we going to get there? We 
saw in Katrina the ones that you indicated that were doing a 
great job had that relationship, had those resources, had that 
training and was able to implement their plans. Those 
communities that did not I think we saw the difference there.
    Mr. Shuster. Ms. Hayashi.
    Ms. Hayashi. I have nothing to add.
    Mr. Shuster. I think you make an important point about the 
funding, the EMPG funds. I think most of that was redirected to 
terrorism. I saw you shaking your head when I said the fifth 
point about the tension between terrorism preparedness and 
emergency management. What I have learned talking to emergency 
managers is a response to terrorism or a natural disaster, 
about 80 or 90 percent of it is the same. It is just that some 
of the equipment has to be different.
    Mr. Renteria. I just want to tag onto Ellis' statement. 
Math is not my greatest strength so bear with me. I am just 
guessing. Last year, 2005, federal money was given to 
California for terrorism preparedness equated to $7.86 per 
capita. EMPG money 39 cents. There is a difference. We need to 
be investing wisely. Again, how many terrorist events have we 
had? I'm not saying that we shouldn't be prepared for 
terrorists.
    It is a real scenario but it is just an additional scenario 
in our emergency management structure. It is a human cause 
disaster. Regardless of whether you are from this country or 
another country it is a human cause disaster and it has the 
same consequences but we are not investing wisely the funding 
that is coming down now to help us prepare. Yet, the biggest 
frustration that I have at the state level is when I look at 
locals, local governments do not have the support they need to 
be better prepared and disasters start at the local level.
    Mr. Stanley. Mr. Shuster, if we use something as simple as 
pandemic right now and we compare the bio from the pandemic or 
the bio from a terrorist event, locally we know that is not 
geared to a city. That is a regional or national event, but 
there are things locals need to be doing. We need to be 
bringing the schools together.
    If kids have to stay home, is there a distance learning 
program in place? How does that impact the private sector? What 
are they going to do if a percentage of employees are not at 
work? If we look at 40 percent of our own employees that can't 
come in, those are things that we need to be doing and we have 
control of.
    Going back to Dr. Jones when you are talking about the 
hospitals, we can't do anything about the retrofit of the 
hospitals because it keeps getting pushed back by the 
lobbyists, etc., but we can look at do we have field hospitals 
that we can move in place when we lose a hospital that we can 
make sure we are keeping--those are things that can be going on 
on a day-to-day basis.
    Those are real world actions that can be taken if we have 
the people and the resources in place to do those and we 
shouldn't have to wait for somebody to come in from federal 
government. We know these situations and these predictable 
surprises as it were. We know what they are and we know that we 
have the capabilities and the resources to be dealing with that 
now.
    Mr. Shuster. Well, I really want to thank you very much for 
being here in front of us today. This discussion really adds to 
our knowledge as we move forward. I'll make my plea one more 
time. Make sure you are engaged with members of Congress 
because there are a lot of members of Congress out there and I 
have heard some of them say DOD should take over emergency 
management.
    That is the wrong answer. I can stand up there and Gary can 
stand up there and we can make the case for doing this or that 
but really if you are in California or if you are in Arkansas 
or the local or state emergency management people are talking 
about what they want to see.
    I have been around enough emergency management folks that 
we don't always see eye to eye on the exact structure of how 
FEMA should look or DHS but I think there are some core 
principles there that if you are out engaged and you are 
educating your member of Congress, we are going to have a lot 
better chance when we do something with FEMA whether it is 
within or without DHS it is going to be much better for you 
folks because I couldn't agree more with Mr. Miller.
    Even at the local response is where it has to take place 
and that is where it starts, moves up to the state and to the 
feds and the federal government should be there as a support 
mechanism for you.
    One other point I just wanted to make. I was told that you 
had mentioned for every dollar of mitigation it is three 
dollars in return. We saw a report that said for every dollar 
it is four dollars in return. What do they say? An ounce of 
prevention is worth a pound of cure. Again, thank you all very 
much for being here.
    I want to ask unanimous consent that the record of today's 
hearing remain open until such time as all the witnesses have 
provided answers to any questions that may be submitted in 
writing and unanimous consent that during such time as the 
record remains open additional comments offered by individuals 
or groups may be included in the record of today's hearing. 
Without objection so ordered. Again, thank you all very, very 
much for being here.
    [Whereupon, at 11:00 a.m. the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8263.001
    
    [GRAPHIC] [TIFF OMITTED] T8263.002
    
    [GRAPHIC] [TIFF OMITTED] T8263.003
    
    [GRAPHIC] [TIFF OMITTED] T8263.004
    
    [GRAPHIC] [TIFF OMITTED] T8263.005
    
    [GRAPHIC] [TIFF OMITTED] T8263.006
    
    [GRAPHIC] [TIFF OMITTED] T8263.007
    
    [GRAPHIC] [TIFF OMITTED] T8263.008
    
    [GRAPHIC] [TIFF OMITTED] T8263.009
    
    [GRAPHIC] [TIFF OMITTED] T8263.010
    
    [GRAPHIC] [TIFF OMITTED] T8263.011
    
    [GRAPHIC] [TIFF OMITTED] T8263.012
    
    [GRAPHIC] [TIFF OMITTED] T8263.013
    
    [GRAPHIC] [TIFF OMITTED] T8263.014
    
    [GRAPHIC] [TIFF OMITTED] T8263.015
    
    [GRAPHIC] [TIFF OMITTED] T8263.016
    
    [GRAPHIC] [TIFF OMITTED] T8263.017
    
    [GRAPHIC] [TIFF OMITTED] T8263.018
    
    [GRAPHIC] [TIFF OMITTED] T8263.019
    
    [GRAPHIC] [TIFF OMITTED] T8263.020
    
    [GRAPHIC] [TIFF OMITTED] T8263.021
    
    [GRAPHIC] [TIFF OMITTED] T8263.022
    
    [GRAPHIC] [TIFF OMITTED] T8263.023
    
    [GRAPHIC] [TIFF OMITTED] T8263.024
    
    [GRAPHIC] [TIFF OMITTED] T8263.025
    
    [GRAPHIC] [TIFF OMITTED] T8263.026
    
    [GRAPHIC] [TIFF OMITTED] T8263.027
    
    [GRAPHIC] [TIFF OMITTED] T8263.028
    
    [GRAPHIC] [TIFF OMITTED] T8263.029
    
    [GRAPHIC] [TIFF OMITTED] T8263.030
    
    [GRAPHIC] [TIFF OMITTED] T8263.031
    
    [GRAPHIC] [TIFF OMITTED] T8263.032
    
    [GRAPHIC] [TIFF OMITTED] T8263.033
    
    [GRAPHIC] [TIFF OMITTED] T8263.034
    
    [GRAPHIC] [TIFF OMITTED] T8263.035
    
    [GRAPHIC] [TIFF OMITTED] T8263.036
    
    [GRAPHIC] [TIFF OMITTED] T8263.037
    
    [GRAPHIC] [TIFF OMITTED] T8263.038
    
    [GRAPHIC] [TIFF OMITTED] T8263.039
    
    [GRAPHIC] [TIFF OMITTED] T8263.040
    
    [GRAPHIC] [TIFF OMITTED] T8263.041
    
    [GRAPHIC] [TIFF OMITTED] T8263.042
    
    [GRAPHIC] [TIFF OMITTED] T8263.043
    
    [GRAPHIC] [TIFF OMITTED] T8263.044
    
    [GRAPHIC] [TIFF OMITTED] T8263.045
    
    [GRAPHIC] [TIFF OMITTED] T8263.046
    
    [GRAPHIC] [TIFF OMITTED] T8263.047
    
    [GRAPHIC] [TIFF OMITTED] T8263.048
    
                                    

</pre></body></html>
